Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





       STATE REFERRAL OF

         NURSING HOME 

      ENFORCEMENT CASES





                     Daniel R. Levinson 

                     Inspector General 


                      December 2005

                     OEI-06-03-00400

               Office of Inspector General 

                                    http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors
in carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts management and program
evaluations (called inspections) that focus on issues of concern to HHS, Congress, and
the public. The findings and recommendations contained in the inspections generate
rapid, accurate, and up-to-date information on the efficiency, vulnerability, and
effectiveness of departmental programs. OEI also oversees State Medicaid Fraud
Control Units which investigate and prosecute fraud and patient abuse in the Medicaid
program.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. OCIG imposes program exclusions and civil
monetary penalties on health care providers and litigates those actions within HHS.
OCIG also represents OIG in the global settlement of cases arising under the Civil False
Claims Act, develops and monitors corporate integrity agreements, develops compliance
program guidances, renders advisory opinions on OIG sanctions to the health care
community, and issues fraud alerts and other industry guidance.
Δ      E X E C U T I V E                              S U M M A R Y               




                  OBJECTIVE
                  To determine the extent to which State survey agencies refer nursing
                  home enforcement cases, as required, to the Centers for Medicare &
                  Medicaid Services (CMS).


                  BACKGROUND
                  The Omnibus Budget Reconciliation Act of 1987 established a survey
                  and certification process to maintain Federal standards in nursing
                  homes certified for participation in the Medicare and/or Medicaid
                  programs. CMS has the responsibility for enforcement at the Federal
                  level and contracts with States to survey facilities to certify compliance.
                  Deficiencies in patient care are considered in conjunction with facility
                  history to determine any CMS enforcement action.

                  For CMS to enforce standards, States are required to refer three types
                  of cases to CMS: immediate jeopardy cases, which involve actual (or
                  potential for) death or serious injury; double G cases, which identify
                  facilities with a historical pattern of high-level noncompliance; and
                  opportunity to correct cases, which involve facilities failing to correct
                  less severe problems within a given timeframe.

                  For this inspection, we identified cases between July 2002 and June
                  2003 that were not referred, reviewed documentation for these cases
                  from CMS and States, and interviewed CMS and State staff.


                  FINDINGS
                  States failed to refer almost 8 percent of required nursing home
                  enforcement cases. Although States referred most nursing home cases
                  warranting enforcement during the study period, we estimate that
                  7.6 percent of cases were not referred. Two problems accounted for
                  78 percent of nonreferrals: difficulty identifying double G cases and
                  attempted referrals that were not recognized as such by CMS. The
                  remaining nonreferrals were caused by random human error and a
                  variety of other, less common policy and procedural problems.
                  Difficulty identifying double G cases, resulting from problems with
                  reviews of facility history, caused 47 percent of nonreferrals. Double
                  G cases require that State staff review facility history to establish a
                  pattern of noncompliance. We found two primary difficulties in properly
                  identifying double G cases during these reviews: State staff did not

OEI-06-03-00400   S TAT E R E F E R R A L   OF   NURSING HOME ENFORCEMENT CASES
                                                                                          i
E X E C U T I V E                     S U           M M A R Y 





                  conduct a thorough review to detect all prior high-level deficiencies, and
                  State staff misunderstood the fairly complex double G criteria. There is
                  also evidence that these criteria are not completely clear to some CMS
                  regional office staff. In 21 percent of double G cases that were not
                  referred, State staff received incorrect or insufficient guidance from
                  CMS.
                  Unsuccessful referrals, resulting in 31 percent of nonreferrals, were
                  those attempted by States but not recognized as referrals by CMS.
                  For these cases, States documented that they provided a referral to CMS,
                  but CMS staff reported they never received the referral. When we
                  pursued these cases further, we found that either the methods States
                  used to refer the cases were inadequate to alert CMS staff that a referral
                  had been made, or that States sent sufficient documentation but the
                  referrals were still missed. Neither States nor CMS reported having a
                  routine process for verifying whether CMS received referrals.


                  RECOMMENDATIONS
                  CMS should address the failure to identify double G cases. CMS
                  should clarify and communicate specific criteria for identifying double G
                  cases to both State and CMS regional office staff, focusing on common
                  areas of misunderstanding. CMS should also provide technical
                  assistance to States to assist in improving State reviews of facility
                  history which would identify double G cases.
                  CMS should address the incidence of attempted but unsuccessful
                  referrals by developing a uniform referral process. To ensure that all
                  State referrals are received, CMS should implement a uniform referral
                  process that could include a standard referral document or an automated
                  referral mechanism within the enforcement data system shared by States
                  and CMS. CMS should also develop a method for verifying that cases
                  referred by States are received by CMS.

                  AGENCY COMMENTS
                  CMS concurred with our recommendations. The agency further
                  commented that it has recently or will soon implement all of the Office
                  of Inspector General’s recommendations.




OEI-06-03-00400   S TAT E R E F E R R A L   OF   NURSING HOME ENFORCEMENT CASES
                                                                                         ii
Δ   T A B L E          O F           C O N T E N T S                              





         EXECUTIVE SUMMARY .....................................i



         INTRODUCTION ........................................... 1



         FINDINGS ................................................. 6

                   Incidence of nonreferral . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6 


                   Causes of nonreferral . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6 


                   Double G cases . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7 


                   Attempted but unsuccessful referrals . . . . . . . . . . . . . . . . . . . . . . . 9 


         R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11 



         E N D N O T E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14 



         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16 

                   A: Detailed Methdology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16 


                   B: Confidence Intervals . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22 


                   C: Other Policy and Procedural Problems. . . . . . . . . . . . . . . . . . . 23 


                   D: Double G Case Example . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25 


                   E: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26 



         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30 

Δ     I N T R O D U C T I O N                                    




                  OBJECTIVE
                  To determine the extent to which State survey agencies refer nursing
                  home enforcement cases, as required, to the Centers for Medicare &
                  Medicaid Services (CMS).


                  BACKGROUND
                  Enforcement Process
                  The Social Security Act (the Act) establishes requirements for nursing
                  home participation in the Medicare and Medicaid programs. The
                  Secretary is responsible for ensuring that these requirements and their
                  enforcement “are adequate to protect the health, safety, welfare, and
                  rights of residents and to promote the effective and efficient use of public
                  moneys.”1 The Omnibus Budget Reconciliation Act of 1987 establishes a
                  survey and certification process for CMS and States to use to verify that
                  Federal standards are maintained in nursing homes certified for
                  participation in the Medicare and/or Medicaid programs.

                  CMS has primary responsibility for enforcement of these standards, and
                  contracts with State survey and certification agencies to survey each
                  facility no less than once every 15 months to certify compliance with
                  Federal standards.2 Surveyors revisit noncompliant facilities to
                  determine whether deficiencies have been corrected and to investigate
                  complaints. These surveys are abbreviated versions of the standard
                  surveys. Any deficiency in quality of care, safety, or patient rights, as
                  determined through these surveys, may lead to CMS enforcement actions.

                  Deficiencies identified during any facility survey are evaluated against a
                  set of factors to determine a scope and severity rating.3 The Scope and
                  Severity Grid (Table 1) ranks deficiencies according to how widespread
                  they are and their outcomes, such as harm to residents.4 The scope and
                  severity levels of the deficiencies are considered in conjunction with the
                  facility’s compliance history to determine the enforcement actions taken
                  by CMS, including imposing remedies such as denial of payment and civil
                  money penalties.5 Successful referral of nursing home enforcement cases
                  by States is essential to CMS’s efforts to enforce Federal standards of
                  care.




OEI-06-03-00400   S TAT E R E F E R R A L   OF   NURSING HOME ENFORCEMENT CASES
                                                                                            1
I N T R O D       U C T            I O N 





                     Table 1: Scope and Severity Grid for Deficiencies
                                                                                        Deficiency Scope
                     Deficiency Severity
                                                                             Isolated        Pattern       Widespread

                     Actual or potential for death or serious
                                                                                   J           K               L
                     injury (immediate jeopardy)



                     Actual harm that is not immediate jeopardy                    G           H               I



                     Potential for more than minimal harm                          D           E               F



                    Potential for minimal harm; substantial
                                                                                   A           B               C
                    compliance exists


                   Source: CMS State Operations Manual, Chapter 7.


                   Case Referral Requirements
                   States are required by CMS to refer three types of enforcement cases to
                   CMS regional offices, as described below. When CMS receives such a
                   referral, case information is entered into the Long Term Care
                   Enforcement Tracking System (LTC), a compilation of each region’s
                   nursing home enforcement case files. Once a case is referred, CMS
                   considers the State recommendations and imposes remedies on the
                   facility. An enforcement case includes all enforcement activity with
                   respect to a particular facility during a continuous period of
                   noncompliance, which enforcement staff refer to as a cycle.6 The three
                   types of cases requiring referral are:
                   Immediate Jeopardy Cases. These are cases in which there is actual (or
                   potential for) death or serious injury. They involve the highest level of
                   noncompliance by a facility, i.e., scope and severity ratings of J, K, and L.
                   States must refer these facilities to CMS within 2 calendar days of finding
                   the deficiency so that CMS can initiate required enforcement activities.7
                   Because of the severity of noncompliance, CMS will terminate the
                   Medicare contract of facilities with immediate jeopardy citations lasting
                   23 days or more.
                   Double G Cases.8 The Poor Performer Rule was developed in 1998 as a
                   method for identifying historical patterns of high-level noncompliance by
                   facilities and expanded in 1999 to the Double G Rule.9 The expanded rule


OEI-06-03-00400    S TAT E R E F E R R A L   OF   NURSING HOME ENFORCEMENT CASES
                                                                                                                        2
I N T R O D       U C T            I O N


                   requires States to establish a double G case when a facility is cited for
                   G-level or higher deficiencies on two surveys, hence the term double G. 10
                   When a G-level deficiency is cited on a current survey, State staff must
                   review facility history to determine whether the facility was previously
                   cited with a G-level deficiency. However, not all G-level deficiencies found
                   in facility histories count toward a double G. Therefore, establishing a
                   double G case hinges on correct identification of the “prior G.”

                   Double G criteria are defined as follows: double G cases are established
                   when G-level deficiencies are cited on a current survey and on a prior
                   survey. These surveys can be standard, complaint, or revisit surveys.
                   Prior G-level deficiencies count toward establishing a case if they were
                   cited on the most recent completed standard survey (completed indicating
                   that compliance was eventually achieved). Prior G-level deficiencies also
                   count if they were cited on any intervening survey between the most
                   recently completed standard survey and the current survey, as long as
                   they are not in the same period of noncompliance as the current survey.
                   (A pattern of noncompliance is indicated when the two G-level deficiencies
                   occur in separate periods of noncompliance.)
                   Opportunity to Correct Cases. For most cases that are not rated as
                   immediate jeopardy or double G, facilities are provided an opportunity to
                   correct problems. In these cases, facilities are allowed a period during
                   which they can come into compliance without the involvement of CMS.
                   Upon revisit by State surveyors, if deficiencies at a scope and severity
                   level of D or above are not corrected, States are required to refer the case
                   to CMS. Generally, States are expected to conduct the revisit within 60
                   days of the initial finding of noncompliance. Then, if referral is needed,
                   States are required to refer the case to CMS within 70 days of the initial
                   finding of noncompliance. Adherence to this timeframe is important
                   because it provides CMS time to impose a denial of payment for new
                   admissions by the 90th day of noncompliance, as required in the Act.11
                   The Referral Process
                   The term “referral” describes the process by which State survey agencies
                   notify CMS about cases of noncompliance and recommend enforcement
                   actions. Without a successful referral, CMS cannot fulfill its obligation to
                   enforce Medicare standards for nursing homes. For the purposes of this
                   report, a succesful referral indicates that the State agency appropriately
                   identified the case as requiring CMS involvement and provided CMS with
                   sufficient information to alert them to begin the enforcement process. To
                   assist in determining case referrals, CMS provides guidance to States
                   through written instructions provided in the “State Operations Manual”
OEI-06-03-00400    S TAT E R E F E R R A L   OF   NURSING HOME ENFORCEMENT CASES
                                                                                            3
I N T R O D       U C T            I O N


                   (SOM) and ongoing dialogue between State and CMS regional office staff.
                   Once the case is referred, CMS determines what enforcement action to
                   take and imposes remedies.
                   Shared Data Systems
                   After referral, case information is maintained through data systems
                   shared by CMS and States. Traditionally, CMS has used the Online
                   Survey, Certification and Reporting System (OSCAR) to record the results
                   of standard, complaint, and revisit surveys. In October 2004, CMS
                   completed national implementation of the new Automated Survey
                   Processing Environment (ASPEN) Enforcement Manager (AEM). The
                   ASPEN is used by CMS and States to record and access both survey
                   results and enforcement data. State surveyors enter survey findings into
                   a local ASPEN database, then upload the data into a central ASPEN
                   system and also into OSCAR.
                   CMS Oversight
                   Although there is no explicit requirement that CMS oversee State referral
                   of nursing home enforcement cases, the Act gives CMS responsibility for
                   enforcing Federal requirements regarding the health and safety of
                   nursing home residents.12 The Act also specifies that States must assist
                   in enforcement procedures as part of the survey process.13 State
                   performance in survey and certification is evaluated annually through
                   State Performance Reviews (SPR), which are conducted by CMS regional
                   offices and include general performance standards. One of the SPR
                   standards addresses the referral process, but only with regard to the
                   timeliness of referrals.


                   METHODOLOGY
                   To determine the extent to which States refer required nursing home
                   enforcement cases to CMS, we analyzed available administrative data
                   and reviewed case documents obtained from CMS regional offices and
                   State agencies. Based on our initial review of OSCAR data, we identified
                   3,663 cases believed to require referral as the result of Medicare
                   certification surveys conducted between July 1, 2002, and June 30, 2003.
                   A review of the regionally based LTC revealed evidence of referral for
                   3,106 of those cases. Timeliness of those referrals was not assessed.

                   For the remaining 557 cases, we selected a stratified random sample
                   consisting of 200 records for further investigation. Stratification was
                   based on the case type (i.e., immediate jeopardy, double G, or opportunity
                   to correct) initially identified through analysis of the OSCAR data. For

OEI-06-03-00400    S TAT E R E F E R R A L   OF   NURSING HOME ENFORCEMENT CASES
                                                                                          4
I N T R O D       U C T            I O N


                   each sample case, we requested case information and documentation of
                   referral from State agencies and CMS regional offices. Their combined
                   responses were used to categorize each sample case into one of three
                   categories: successful referral, nonreferral (referral error), or did not
                   require referral. Referral errors were further evaluated to determine a
                   primary cause of nonreferral and those causes were then explored during
                   interviews with CMS and State staff.

                   Our overall estimate reflects necessary adjustments to the population to
                   remove cases found not to require referral. Adjustments to the population
                   had minimal impact on our estimates. Additional information on
                   adjustments and the specifics of our methodology are presented in
                   Appendix A. Confidence intervals for point estimates are provided in
                   Appendix B.
                   Quality Standards
                   This study was conducted in accordance with the “Quality Standards for
                   Inspections” issued by the President’s Council on Integrity and Efficiency.




OEI-06-03-00400    S TAT E R E F E R R A L   OF   NURSING HOME ENFORCEMENT CASES
                                                                                           5
  F I     FN ID NI ND GI NS G S
 Δ
 States failed to refer almost 8 percent of cases          While States referred most of the cases
warranting enforcement, thereby limiting CMS’s             requiring referral to CMS during the
                                                           study period, we found that 7.6 percent
  ability to address poor care at some facilities
                                                           of enforcement cases (estimated 253 of
                       3,323) were never referred or the attempted referral did not adequately
                       alert CMS regional office staff that a referral was made. Because CMS
                       was not aware of these cases, the agency had no opportunity to address
                       noncompliance. The potential result of not enforcing Federal standards is
                       continued poor-quality care of residents in the facilities involved in these
                       cases.

                       States are required to refer three types of cases: immediate jeopardy,
                       double G, and opportunity to correct. Immediate jeopardy cases⎯often
                       the most serious cases, involving actual or the potential for death or
                       serious injury⎯that were not referred included a case of a resident who
                       sustained a bone-breaking fall as the result of a building hazard. Double
                       G cases⎯those with a pattern of noncompliance⎯that were not referred
                       included citations for improper treatment of pressure sores and
                       employment of staff previously found guilty of abuse. Opportunity to
                       correct cases⎯those involving deficiencies of a lower scope and severity
                       that were not corrected over time⎯that were not referred included a case
                       of inappropriate use of physical restraints.



       Two causes accounted for 78 percent of             For the 7.6 percent of enforcement
                                                          cases not referred, two problems
    nonreferrals: difficulty identifying double G
                                                          emerged as the primary causes of
    cases and attempted referrals that were not
                                                          nonreferrals (see Chart 1 on page 7).
               recognized as such by CMS staff            Difficulty identifying double G cases
                       was the most prominent cause, accounting for 47 percent of total
                       nonreferrals. Unsuccessful referrals accounted for 31 percent of total
                       nonreferrals and occurred when States attempted to refer a case but the
                       referral was not recognized as such by CMS regional office staff.

                       An additional 9 percent of total nonreferrals were due to random human
                       error. We found no patterns indicating systemic problems in these cases
                       and we do not discuss them further. The remaining 13 percent of
                       nonreferrals were the result of less-common policy and procedural
                       problems, primarily involving incorrect decisions to not refer cases or to
                       delay referral. Detailed descriptions of these problems are included in
                       Appendix C.



    OEI-06-03-00400    S TAT E R E F E R R A L   OF   NURSING HOME ENFORCEMENT CASES
                                                                                                6
  F   I N D I N G           S           



             CHART 1
           CAUSES OF
                                                                                          Unsuccessful
   NONREFERRALS OF                                                                        Referral
     NURSING HOME                                                                         31%
ENFORCEMENT CASES
                                            Difficulty
                                            Identifying
                                            Double G
                                            47%


                                                                                        Other Policy
                                                                                        and
                                                            Random
                                                                                        Procedural
                                                            Human Error
                                                                                        Problems
                                                            9%
                                                                                        13%



                              Source: OIG analysis of 125 cases requiring referral, July 2002–June 2003.



                       Double G Cases

                       Difficulty identifying double G cases, which account for 47 percent of
                       nonreferrals, resulted from problems with reviews of facility history.
                       Because double G cases are based on establishing a pattern of high-level
                       noncompliance, identifying double G cases requires that State staff review
                       facility survey history to determine if a prior G-level deficiency has been
                       cited and whether the case should be referred. State staff must follow
                       specific criteria for determining whether G-level deficiencies previously
                       cited for the facility count toward a double G designation. We found two
                       difficulties in identifying double G cases: staff did not conduct a thorough
                       review of facility history (34 percent), and staff misunderstood Federal
                       double G criteria (13 percent).
                       State staff missed prior G-level deficiencies when conducting reviews of
                       facility history
                       In our case reviews, we found that 34 percent of nonreferrals resulted
                       from State staff failing to identify a G-level deficiency from a prior survey.
                       When staff offered an explanation, they either reported that they
                       neglected to review the facility survey history, or that they reviewed the
                       history but missed the prior deficiency. CMS staff confirmed in
                       interviews that it can be difficult to find prior G-level deficiencies in
                       survey records.

                       Based on case reviews and interviews with CMS and State staff, the
                       following two factors contribute to staff missing prior G-level deficiencies
                       during reviews of facility survey history:
OEI-06-03-00400        S TAT E R E F E R R A L   OF   NURSING HOME ENFORCEMENT CASES
                                                                                                           7
F   I N D I N G    S


                  Facilities with many surveys can have complicated histories. Cases in our
                  sample had as many as 12 surveys for State staff to review for a single
                  facility (including standard and complaint surveys, as well as revisits),
                  each with varying levels of deficiencies and encompassing multiple
                  periods of noncompliance. In these cases, determining whether a prior
                  G-level deficiency meets Federal double G criteria requires substantial
                  and careful scrutiny of survey records.
                  OSCAR and ASPEN data can be inaccurate. State staff reported that they
                  often rely on data in OSCAR and ASPEN to review facility histories, yet
                  prior G-level deficiencies were not always included in database records of
                  cases in our sample. In interviews, State and CMS staff identified the
                  following potential causes of inaccurate data: State staff not entering
                  survey data timely due to workload, neglecting to upload data into the
                  national ASPEN and OSCAR databases after entering the data in their
                  local ASPEN system, failing to correct and resubmit data that were
                  rejected in the uploading process as the result of errors, and failing to
                  upload deficiencies retained after an informal dispute resolution.14
                  State staff failed to identify double G cases due to misinterpretation of Federal
                  double G criteria
                  In some cases, we found that State staff misinterpreted Federal criteria
                  for identifying double G cases. Such errors accounted for 13 percent of
                  total nonreferrals. Both CMS and State staff reported that this
                  misunderstanding is caused in part by the complexity of the double G
                  criteria. Correctly identifying a double G case requires that State staff
                  fully understand which prior G-level deficiencies count toward a double G
                  and correctly apply the criteria to individual cases.
                  State staff responses in case reviews and interviews indicated a number
                  of misunderstandings regarding double G criteria. For example, staff in
                  eight sample cases did not understand that the prior standard survey that
                  creates the timeframe for review has to be the most recent completed
                  standard survey—meaning the last one for which compliance was
                  eventually achieved (see example in Appendix D).15 Other examples
                  include the misperception that only deficiencies cited on standard surveys
                  (not complaint or revisit surveys) should count toward a double G, and
                  that the two G-level deficiency findings must involve the same specific
                  deficiency (even though the nature of the deficiency does not matter).

                  Other State staff reported they believed (incorrectly) that they should
                  review all surveys in the same period of noncompliance as the most recent
                  completed standard survey to find the prior G-level deficiency, rather

OEI-06-03-00400   S TAT E R E F E R R A L   OF   NURSING HOME ENFORCEMENT CASES
                                                                                              8
F   I N D I N G    S


                  than just looking to the most recent completed standard survey and any
                  intervening surveys. This misunderstanding could cause staff to count
                  “prior G” deficiencies that were cited before the most recent completed
                  standard survey but in the same period of noncompliance, inappropriately
                  designating a double G to facilities that did not meet the criteria.
                  Insufficient or incorrect guidance from CMS contributed to State staff
                  misunderstanding of double G criteria
                  Our case reviews and staff interviews revealed difficulties with CMS
                  guidance to States. We found that State staff involved in our sample
                  cases had difficulty applying the written instructions in the SOM to the
                  actual cases that they were reviewing. The SOM provides only a brief
                  description of double G criteria and does not provide examples of its
                  application.16 A clarification was added to the manual in May 2004, but it
                  addresses just one aspect of the criteria (that double G cases must involve
                  two distinct cycles of noncompliance).17
                  In addition to guidance provided in the SOM, State staff frequently
                  contacted CMS regional offices for additional clarification when making
                  double G determinations. However, this guidance sometimes contributed
                  to the misunderstanding of double G criteria. Specifically, we found that
                  in 21 percent of nonreferred double G cases, State staff received incorrect
                  or incomplete guidance from CMS. Further, interviews with CMS
                  regional office staff confirmed that they sometimes have the same
                  difficulties as State staff in fully understanding and applying double G
                  criteria. For example, staff from 5 of the 10 CMS regional offices gave
                  descriptions of double G criteria that were inconsistent with the criteria
                  developed by the CMS central office and included in the SOM.18


                  Attempted but Unsuccessful Referrals

                  Thirty-one percent of nonreferrals were attempted by States but not
                  recognized as referrals by CMS regional offices
                  For these cases, States documented or attested that they provided some
                  type of notice to CMS, but CMS regional office staff reported they never
                  received the referral. Unsuccessful referrals in our sample included all
                  3 case types and 7 of the 10 CMS regions. When we pursued these cases
                  further, we found that either the methods States used to refer the cases
                  were insufficient to alert CMS staff that a referral had been made, or that
                  States sent sufficient documentation but CMS still missed the referrals.
                  Neither States nor CMS reported having a routine process for verifying
                  whether referrals are actually received.
OEI-06-03-00400   S TAT E R E F E R R A L   OF   NURSING HOME ENFORCEMENT CASES
                                                                                          9
F   I N D I N G    S


                  In 15 percent of nonreferrals, States only sent CMS a copy of the
                  noncompliance letter that the State sent to the facility as notice of an
                  enforcement action. Forwarding copies of these letters might appear to be
                  an efficient way to alert CMS of the enforcement case because these
                  letters include the deficiencies cited and the recommended remedies.
                  However, CMS regional office staff reported they might miss these
                  referrals because there is no clear request that action be taken by CMS,
                  regional offices receive large volumes of mail, and letters may be
                  intermingled with communication regarding other business.

                  The remaining 16 percent of nonreferrals in this group were unsuccessful
                  because, although States sent what appeared to be sufficient referrals,
                  CMS staff still did not recognize them. While it is difficult to determine
                  why this happened in specific cases, both CMS and State staff reported
                  occasional careless practices that could cause missed referrals. Examples
                  include a report of staff in one State mailing all referral documents in a
                  large box at the end of each week with no cover letter or list of contents,
                  and staff in one CMS regional office reporting that documents received on
                  a shared fax machine are not always routed to the appropriate person to
                  initiate enforcement.

                  An underlying cause of unsuccessful referrals may be that CMS does not
                  require States to use a uniform referral process or a standard referral
                  document. Staff in four CMS regional offices reported that they do not
                  specify any method or content for State referrals and that they will accept
                  as sufficient a copy of the facility noncompliance letter or a brief e-mail
                  message. However, even though these are considered acceptable referral
                  methods, we documented cases sent to the regions by these methods that
                  were not recognized by CMS staff as referrals.




OEI-06-03-00400   S TAT E R E F E R R A L   OF   NURSING HOME ENFORCEMENT CASES
                                                                                         10
Δ       R E C O M M E N D A T I O N S                                             



                  Although successful referrals occurred in most cases, improvements could
                  be made to the process to better ensure that all cases are referred. Our
                  recommendations speak to reinforcement of procedures or policies already
                  in place that States and CMS staff do not always practice. They address
                  the following problems: difficulty identifying double G cases and
                  attempted referrals that are unsuccessful because they are not recognized
                  as such by CMS staff.
                  CMS should address the failure to identify double G cases by ensuring that
                  CMS and State staff apply double G criteria correctly and by working with
                  States to improve reviews of facility history
                  CMS should clarify and communicate specific criteria for identifying double G
                  cases. Misunderstanding of the criteria for determining double G cases
                  was a primary cause of nonreferral and was found among both State and
                  CMS regional office staff. CMS should clarify and communicate these
                  criteria to staff, including ensuring that the SOM serves as a clear and
                  practical guide to determining double G cases.

                  Owing to the complexity of the double G criteria, clearer instruction may
                  not completely alleviate problems. CMS might also wish to consider
                  simplifying the double G criteria while still preserving their purpose of
                  identifying facilities with a pattern of noncompliance.
                  CMS should provide technical assistance to States to address inaccurate data.
                  CMS and State staffs reported that inaccurate data in OSCAR and
                  ASPEN contributed to staff’s missing double G cases when reviewing
                  facility histories. CMS should ensure that States properly enter survey
                  results in these databases and target specific problems raised by staff,
                  such as not entering survey data timely, neglecting to upload data to the
                  national ASPEN and OSCAR databases, failing to correct and resubmit
                  data that were rejected as the result of errors, and failing to upload
                  deficiencies retained after an informal dispute resolution.
                  CMS should address the incidence of attempted but unsuccessful referrals
                  by developing a uniform referral process and verifying that referrals are
                  received
                  Twenty-nine percent of State referrals were unsuccessful in alerting CMS
                  that a referral was made. To ensure that all State referrals are received,
                  CMS should implement a uniform referral process. This process could
                  include a standard referral document that could be adapted to various
                  State transmittal methods, such as mail, fax, or e-mail, yet still be easily
                  recognized by CMS staff. Alternatively, CMS could create an automated

OEI-06-03-00400   S TAT E R E F E R R A L   OF   NURSING HOME ENFORCEMENT CASES
                                                                                            11
                  referral process in ASPEN that would notify regional offices of any
                  enforcement case entered by State staff. Regardless of the uniform
                  process chosen, CMS should also develop a method for verifying that cases
                  referred by States are received by CMS.


                  AGENCY COMMENTS
                  CMS concurred with each of our recommendations, and commented that it
                  has recently or will soon take action related to each of them. We agree
                  that these actions will be useful in addressing the problems identified.
                  However, based on our report findings, we are concerned that CMS’s
                  comments to the draft report may not fully address each recommendation.
                  The areas that we continue to believe require additional attention by
                  CMS are listed below:
                  Double G Criteria
                  In response to our recommendation that CMS should clarify and
                  communicate specific criteria for identifying double G cases, CMS cited its
                  May 2004 addition to the SOM, discussed on page 9 of this report. This
                  addition instructed State staff to ensure that the two G-level deficiencies
                  that constitute a double G case are found in separate periods of
                  noncompliance. While it is an important clarification, it addresses only
                  one of several problems with interpretation of the double G criteria by
                  State and CMS regional office staff. In conducting this study, we found it
                  clear from our discussions with State and CMS staff that specific
                  technical assistance or training, beyond the issuance of the SOM
                  clarification, is needed to encourage proper application of the criteria and
                  to address common areas of misunderstanding.

                  We continue to recommend that the guidance provided to States, in the
                  form of the language used in the SOM and the ongoing dialogue between
                  State and CMS regional office staff, be improved to better clarify and
                  communicate double G criteria.
                  Inaccurate Data
                  In response to the recommendation that CMS should provide technical
                  assistance to States to address inaccurate data, CMS articulated steps
                  taken to address data problems through full implementation of
                  enforcement-related components of the ASPEN data system. We agree
                  that the newly implemented data systems have the potential to help
                  ensure that survey and enforcement case information is accurate, but
                  CMS should specifically and proactively address problems with data
                  accuracy to more fully alleviate them.

OEI-06-03-00400   S TAT E R E F E R R A L   OF   NURSING HOME ENFORCEMENT CASES
                                                                                         12
A G     E N       C Y      C O          M M E N T                  S


                        CMS also addressed in its comments our finding that failing to upload
                        case and survey information was a barrier to data accuracy, citing
                        recently issued guidance to States regarding requirements for uploading
                        data timely. We agree that this may improve State accountability in this
                        area; however, other problems with data accuracy remain, including
                        coordination among multiple points of data entry and problems with
                        uploading data that are initially rejected by the data system.
                        Attempted but Unsuccessful Referrals
                        Regarding our recommendation that CMS should address the incidence of
                        attempted but unsuccessful referrals, CMS referenced a specific field in
                        the AEM that will allow regional office staff to identify cases that have
                        been referred by States and anticipate their arrival. If used routinely,
                        this would address the incidence of cases wherein States sent sufficient
                        case information and the referral was not recognized as such by CMS, but
                        it would not address cases that were not referred by States at all. CMS
                        believes these nonreferred cases can be detected as regional office staff
                        monitor key dates in the AEM. However, our understanding is that
                        regional offices are not specifically tasked with such monitoring and are
                        likely to do so only on an ad hoc basis, if at all. Therefore, CMS should
                        direct regional offices to make full use of these promising tools.
                        Technical Comments
                        CMS submitted technical comments, and we have made changes where
                        appropriate (which caused slight changes to some of the percentages CMS
                        referenced in its comments).

                        The full text of CMS’s comments is presented in Appendix E.




OEI-06-03-00400         S TAT E R E F E R R A L   OF   NURSING HOME ENFORCEMENT CASES
                                                                                             13
Δ      E N D N O T E S                             





                  1	   Section 1819 (f)(1) of the Social Security Act (SSA).

                  2	   42 CFR § 488.330.

                  3    42 CFR §§ 488.404, 488.406, and 488.408; and the State Operations
                       Manual (SOM), Chapter 7, § 7400 (E)(3) (2003).

                  4    SOM, Chapter 7, § 7400 (E)(1) (2003).

                  5	   42 CFR §§ 488.404 and 488.406.

                  6    When the results of a survey indicate that a facility is not in substantial
                       compliance with Federal regulations, it is considered to be noncompliant
                       until it returns to substantial compliance. If the facility requires further
                       enforcement action as a result of new deficiencies without first reaching
                       compliance on the original deficiencies, all enforcement activity is
                       considered to be in the same cycle of noncompliance and a part of the
                       same enforcement case.

                  7	   Although findings of immediate jeopardy must be included in the initial
                       2-day notice, the State has 5 calendar days to forward all documentation
                       (notice letter, contact reports, and Form HCFA-1539 Statement of
                       Deficiencies, if completed) to the CMS regional office. 42 CFR § 488.410,
                       as well as SOM, Chapter 7, § 7309(A) (2003).

                  8    CMS requires referral of cases in which facilities are not given an
                       opportunity to correct, but which do not involve immediate jeopardy.
                       Nearly all of the cases in this category are double G cases, but in a small
                       number of cases States may have chosen not to give the facility an
                       opportunity to correct due to other circumstances. Because we are only
                       able to identify double G cases in OSCAR and they represent nearly all of
                       the cases in this category, we will use double G cases to represent the
                       group of cases not given an opportunity to correct deficiencies.

                  9    In 1998, CMS issued a memorandum to State survey agencies instructing
                       them to include nursing homes cited with repeated patterns of actual
                       harm (H-level or above) deficiencies in the category of poor-performing
                       facilities that are denied an opportunity to correct, which became known




OEI-06-03-00400   S TAT E R E F E R R A L   OF   NURSING HOME ENFORCEMENT CASES
                                                                                                 14
                       as the Poor Performer Rule. In 1999, CMS issued a second memorandum
                       that expanded this provision to include facilities cited with G-level
                       (isolated actual harm) deficiencies.

                  10   Double G criteria apply to any G-level or higher deficiencies. For this
                       report, when we refer to a G-level deficiency it should be assumed that
                       we refer to any deficiency at a G level or higher.

                  11   SSA § 1864 and SOM, Chapter 8, § 8000(D)(7) (2003).

                  12   SSA § 1819 (f)(1) (2003).

                  13   SSA § 1864 and SOM, Chapter 8, § 8000(D)(7) (2003).

                  14   When an IDR is pending, State staff are instructed by CMS to delay
                       uploading deficiencies into the ASPEN system until the IDR is resolved.
                       Because ASPEN data are uploaded to OSCAR, the objective behind this
                       is to avoid displaying deficiencies in the Nursing Home Compare
                       directory while they are in dispute.

                  15   A recent addition to the SOM addresses this issue, stating “If the most
                       recent standard survey is within the currently running noncompliance
                       cycle, then look back to the most recent standard survey that is not in the
                       currently running noncompliance cycle in making double G
                       determinations.” SOM, Chapter 7, § 7304 (B)(1) (2004).

                  16   The SOM guidance states “A double G facility is one that has been
                       identified as noncompliant with a scope and severity level of ‘G’ or higher
                       on a current survey and on the previous standard survey or any
                       intervening survey (i.e., any survey between the current survey and the
                       last standard survey).” SOM, Chapter 7, § 7304 (B) (2003).

                  17   See endnote 16 for text. SOM, Chapter 7, § 7304 (B)(1) (2004).

                  18   As indicated in Appendix A (Detailed Methodology), to ensure that this
                       inspection relied on the correct interpretation of double G criteria to
                       make case type and referral determinations, we consulted with CMS
                       central office staff via telephone interviews and other correspondence.




OEI-06-03-00400   S TAT E R E F E R R A L   OF   NURSING HOME ENFORCEMENT CASES
                                                                                                 15
Δ   A P P E N D I X                         ~         A      


                  Detailed Methodology
                  For this inspection, we examined nursing home enforcement cases that
                  required State referral to CMS regional offices. Cases requiring referral
                  include immediate jeopardy cases, double G cases, and opportunity to
                  correct cases that failed to achieve subsequent compliance in the required
                  time period. Our sampling frame was limited to cases resulting from
                  surveys conducted during the 12-month period between July 1, 2002, and
                  June 30, 2003. We used a combination of case reviews and interviews to
                  determine the extent to which States refer required nursing home
                  enforcement cases and to reveal any problems affecting the referral
                  process. This study does not address the timeliness of referrals, but
                  rather whether cases were referred at all.
                  Sampling Design
                  Initial identification of cases requiring referral was based on CMS’s
                  Online Survey, Certification and Reporting System (OSCAR) data.
                  Immediate jeopardy cases included all surveys containing a scope and
                  severity rating of J, K, or L. Opportunity to correct cases that required
                  referral included surveys and complaints with two or more associated
                  revisits. Because of the complexities involved in identifying double G
                  cases, a listing of those cases was provided by CMS central office staff
                  who had previously developed an algorithm to extract such cases using
                  OSCAR data.

                  We compared the cases identified in the OSCAR data as requiring referral
                  to case information in CMS’s Long Term Care Enforcement Tracking
                  System (LTC). If case information was present in the LTC, we considered
                  the case to have been successfully referred. From our population of cases
                  (those that appeared to require referral based on our analysis of OSCAR)
                  we identified two groups: those with evidence of referral in the LTC and
                  those with no evidence of referral. Only cases in the second group (no
                  evidence of referral in LTC) were included in our sampling frame, and
                  then the two groups of cases were ultimately combined to calculate an
                  overall rate of nonreferral.

                  We selected a stratified random sample of 200 cases from the group that
                  did not have evidence of referral in the LTC. Forty-two States and all 10
                  regional offices were represented in this sample. Cases were stratified
                  based on case type; i.e., immediate jeopardy, double G, and opportunity to
                  correct, as determined through our initial review of OSCAR data. The
                  breakdown of our sample by case type is presented in Table 2.



OEI-06-03-00400   S TAT E R E F E R R A L   OF   NURSING HOME ENFORCEMENT CASES
                                                                                         16
   A   P   P E N D      I X             ~            A      





                     Table 2: Sample Design for Cases With No Evidence of Referral
                               Strata                  Population               Sample
                     Double G                                 254                   75
                     Opportunity to Correct                   234                   70
                     Immediate Jeopardy                        69                   55
                      Total                                   557                  200
                     Source: OIG analysis of 3,323 cases requiring referral, July 2002–June 2003.


                     Case Type Identification
                     The three strata are based on our determination of case type using
                     OSCAR data. The case types are, by definition, the reason referral is
                     required. We opted to stratify our sample based on this designation for
                     two reasons: to ensure our ability to include issues involving the most
                     egregious deficiencies (immediate jeopardy) and to be able to identify
                     differences between the case types. Some enforcement cases have
                     multiple reasons for referral, meaning that the case may meet the
                     definition of more than one case type.

                     In our initial determination, we prioritized these reasons by severity of
                     the situation: immediate jeopardy, double G, and opportunity to correct.
                     In reviewing the cases, however, we found the order of events to be more
                     indicative of the reason for referral and adjusted the case types from our
                     initial determinations. For example, if an initial survey meets the
                     definition of a double G and a subsequent revisit meets the definition of
                     an immediate jeopardy, then our case type classification would have
                     switched from immediate jeopardy to double G. We did not, however,
                     change the strata from which they were selected. Because of these
                     changes, we are not providing error estimates for individual case types.
                     Document Requests
                     For cases in the sample, we requested case documentation pertaining to
                     referral from both the State and the CMS regional office responsible for
                     oversight of the facility. From the States, we asked for documentary
                     evidence that a referral had taken place or an explanation of why the case
                     had not been referred.1 We also allowed State staff who could not produce


                     1 Acceptable forms of documentation included electronic mail, facsimile transmission reports,
                        or any other documentation that included case-specific information and a date the
                        information was sent.



OEI-06-03-00400      S TAT E R E F E R R A L   OF   NURSING HOME ENFORCEMENT CASES
                                                                                                                17
AP P AE           PN P
                     D IE X N D
                              ~ I AX                        
~
Δ                                                                    A


                       documentation to attest that a referral to CMS had been made. From the
                       CMS regional offices, we requested verification of whether the case was
                       received and for additional comments pertaining to its referral. We
                       followed up with individual States and regional offices to resolve
                       inconsistencies and unclear responses.
                       Criteria
                       Case reviews were used to determine nonreferrals, as well as to catalogue
                       the causes of nonreferral. Cases were categorized as successfully
                       referred, referred in error, or did not require referral. The projected
                       numbers, including the error rate, were calculated so that cases that did
                       not require a referral were excluded. We determined a successful referral
                       to include:

                              •       cases with evidence of referral in the LTC system,

                              •       cases that CMS acknowledged receiving, and

                              •       cases for which States provided clear documentation of referral.

                       State and regional office responses to our requests yielded numerous
                       explanations of why specific referrals were not believed to be required.
                       We carefully considered these comments, but our decision for assessing
                       whether a case required referral was based on clarifications sought from
                       the CMS central office.

                       We identified 75 cases in our sample that did not require referral.
                       Reasons for not requiring referral include inaccurate OSCAR data and
                       Medicaid-only facilities, among others. Cases that did not meet the
                       criteria for successful referral or were exempt from referral were
                       determined to be referral errors. As stated previously, we did not always
                       accept CMS regional office or State responses that a case did not require
                       referral. Some of these cases were classified as referral errors and are a
                       source of our data to identify policy misinterpretations by CMS and/or
                       State staff.

                       After identifying referral errors, we determined a cause for each. When
                       there were multiple causes for a single case, we selected a primary cause
                       which appeared to be most responsible for the error.
                       Population Adjustments
                       Our review identified 75 cases that did not ultimately require referral (see
                       Table 3). These cases were excluded from our projected numbers.
                       Adjustments to the population had minimal impact on our estimates,
                       changing our overall error rate from 7.4 percent to 7.6 percent.


OEI-06-03-00400        S TAT E R E F E R R A L   OF   NURSING HOME ENFORCEMENT CASES
                                                                                                    18
    A   P   P E N D    I X              ~           A      




                  Table 3: Ineligible Cases
                                                                                   Referral Not
                          Strata                               Initial Sample        Required     Final Sample
                  Double G                                                 75                16             59
                  Opportunity to Correct                                   70                46             24
                  Immediate Jeopardy                                       55                13             42
                   Total                                                  200                75            125
                  Source: OIG analysis of 3,323 cases requiring referral, July 2002–June 2003.




                   Opportunity to correct. Two-thirds of the opportunity to correct cases in the
                   initial sample were found not to require referral. The number in this
                   stratum was reduced from 70 to 24. The cause of this significant change
                   was the data proxy used to identify opportunity to correct cases. To
                   create our proxy, we identified any case in OSCAR with more than one
                   revisit (not including a superceding immediate jeopardy or double G
                   designation) as having had an opportunity to correct. However, our proxy
                   did not distinguish between documentation-only desk reviews and onsite
                   revisits. Many cases with desk reviews (34 of 46) met the definition of
                   substantial compliance and did not require referral. A second, but less
                   frequent, problem was the result of the proxy being based on the number
                   of revisits rather than the timeframe for referral (we subsequently
                   determined that the 70th day of noncompliance is the critical point for
                   requiring referral). The remaining opportunity to correct cases found not
                   to require referral were the result of various data inconsistencies.
                   Cases with evidence of referral in LTC. Because cases not requiring referral
                   were prevalent in our sample, we took an additional sample of 300 cases
                   from those deemed as successful referrals based on their presence in the
                   LTC system. We randomly selected 100 cases from each stratum: double
                   G, immediate jeopardy, and opportunity to correct. We reviewed case-
                   specific data in OSCAR and LTC to ascertain that the case (1) was
                   correctly identified as a referral, (2) had the appropriate case type
                   designation, and (3) was eligible for review. Eleven of the 300 cases
                   reviewed in this group were determined to be ineligible. Of these cases,
                   three were from the immediate jeopardy stratum, four were from the
                   double G stratum, and four were from the opportunity to correct stratum.
                   All 11 were the result of the enforcement cycle being represented more
                   than once.




OEI-06-03-00400    S TAT E R E F E R R A L   OF   NURSING HOME ENFORCEMENT CASES
                                                                                                            19
A   P   P E N D   I X          ~             A        



                   Table 4: Subpopulation Adjustments
                                               Evidence in LTC                                Record Review
                                               Original    Adjusted                          Original   Adjusted
                   Stratum                  Population Population                          Population Population

                   Double G                                            1,382       1,327             254             200
                   Opportunity to Correct                                908         872             234              80
                   Immediate Jeopardy                                    816         792              69              53
                    Total                                              3,106       2,990             557             333
                   Source: OIG analysis of 3,323 cases requiring referral, July 2002–June 2003.



                   Adjustment calculations. Population estimates were created by removing
                   ineligible cases from the sample but retaining the original population
                   weights (see Table 4). These estimates were used in the calculation of an
                   overall error rate. Adjustments reduced the total population only slightly,
                   from 3,663 to 3,323, with a confidence interval of plus or minus 3.0
                   percent (see Table 5). Further analysis confirmed that the impact on our
                   overall estimate was minimal, changing our error rate from 7.4 percent to
                   7.6 percent.


                   Table 5: Overall Population Adjustments

                                                      Adjusted Population                         Confidence Interval
                   In LTC                                           2,990                               2,922 to 3,058
                   Record Request                                     333                                  301 to 364
                    Total                                           3,323                              3,223 to 3,422
                   Source: OIG analysis of 3,323 cases requiring referral, July 2002–June 2003.



                   Statistics
                   The SUDAAN statistical software was used to obtain population
                   estimates for each group. The estimates for each group were combined to
                   provide an estimate of the nonreferral rate overall. The estimates are
                   reflective of population adjustments described above. Analysis of these
                   adjustments was conducted by our mathematical statistician.2
                   Our response rate was 100 percent. Confidence intervals were calculated
                   at the 95-percent level and are presented in Appendix B.




                   2 RAT-STATS is a statistical program developed by the Office of Audit Services, Office of
                        Inspector General, Department of Health and Human Services.



OEI-06-03-00400    S TAT E R E F E R R A L   OF   NURSING HOME ENFORCEMENT CASES
                                                                                                                20
   A   P   P E N D      I X             ~            A      



                     Interviews/Focus Groups
                     During the course of this inspection, two sets of interviews were
                     conducted to help us better understand the causes of nonreferral and
                     CMS’s oversight of this process. Prior to reviewing specific case data, we
                     conducted interviews with CMS regional and central office staff. The
                     purpose of these interviews was to improve our understanding of the
                     causes of nonreferral and to assess CMS guidance and oversight.
                     Interviews were conducted in person by OEI analysts using a structured
                     protocol. Additionally, we conducted follow-up telephone interviews with
                     all CMS regions and 10 State agencies. States were selected for
                     interviews to represent a broad range of case experiences. In these follow-
                     up interviews, we raised issues that were identified during the individual
                     case reviews. We asked respondents to provide us with additional context
                     and plausible explanations or causes of nonreferral. Although many of
                     the questions were related to specific cases, we provided the same
                     scenarios in each interview to assess the potential for problems in other
                     States and regions.

                     After transcribing the interviews, analysts reviewed the material from all
                     interviews collectively, identifying similarities and differences among the
                     responses of different offices and gauging the impact of the information on
                     the referrals process.
                     Limitation
                     Because we used the OSCAR database to identify sample cases, our
                     analysis does not include any cases that States may have inappropriately
                     omitted from OSCAR. To the extent that State survey agencies did not
                     enter cases requiring referrals into ASPEN (and therefore OSCAR), our
                     results would underestimate the extent of nonreferrals. However,
                     because payments are based on these data (creating an incentive for
                     States to enter the information) and because the annual State
                     Performance Review includes components on survey conduct and data
                     entry, we do not expect this limitation to substantively affect our
                     estimates.




OEI-06-03-00400      S TAT E R E F E R R A L   OF   NURSING HOME ENFORCEMENT CASES
                                                                                           21
Δ      A P P E N D I X                                     ~      B      




       CONFIDENCE INTERVALS

       POPULATION
                                                                                           95% Confidence Interval
                                                                               Estimate
                                                                                                 Low            High
       Error Rate*                                                                7.6%        6.81%           8.30%
       Error Cases                                                                 253           228             278

       SUBSET OF NONREFERRAL ERRORS

                                                                                           95% Confidence Interval
                                                                               Estimate
                                                                                                 Low            High
       Difficulty Identifying Double G                                           47.0%       38.24%         55.76%
         - Staff Missed Double G                                                 34.4%       25.60%         43.28%
         - Staff Misinterpreted Double G Policy                                  12.6%        5.94%         19.16%
       Unsuccessful Referral                                                     31.1%       22.12%         40.08%
         - State Sent Only Copy of Facility Letter                               14.8%        7.63%         21.97%
         - Referral Documented but Never Received                                16.3%        9.68%         22.92%
       Random Human Error                                                         8.5%        2.80%         14.20%
       Other Policy and Procedural Problems                                      13.4%        6.68%         20.12%
       SUBSET OF DOUBLE G ERRORS
                                                                                           95% Confidence Interval
                                                                               Estimate
                                                                                                 Low            High
       Incorrect CMS Guidance Given to State                                    31.40%       18.97%          43.83%
       Source: OIG analysis of 3,323 cases requiring referral, July 2002–June 2003.

       *The majority of cases were considered successful referrals based on their presence in the LTC data.
       Only errors in the remaining portion required estimation.




OEI-06-03-00400            S TAT E R E F E R R A L   OF   NURSING HOME ENFORCEMENT CASES
                                                                                                                       22
Δ      A P P E N D I X                           ~      C       



                  Other Policy and Procedural Problems
                  An additional 13 percent of nonreferrals were attributable to specific
                  Federal policies which are unclear or not routinely followed by state staff
                  Although most nonreferrals were caused by problems with identifying
                  double G cases and insufficient notice to CMS, a smaller number of
                  nonreferrals (20 sample cases) were caused by a variety of other policy
                  and procedural problems. We identified four specific problems within
                  these cases that, although the cause of few nonreferrals, reflect either
                  unclear Federal policies or incorrect State practices.
                  Staff may restart correction period upon finding new deficiencies. Nonreferral of
                  11 cases in our sample was the result of State staff not fully
                  understanding Federal referral policy regarding opportunity to correct
                  cases. Opportunity to correct cases which fail subsequent compliance
                  should be referred within 70 days of the initial finding of noncompliance.
                  In the case of these nonreferrals, the facilities were cited with new
                  deficiencies when surveyors revisited them. Mistakenly thinking they
                  must provide the maximum time for correction of the new deficiency, the
                  States restarted the 70-day referral period at the time of the revisit. This
                  allowed the facilities to be out of compliance for longer than 70 days
                  without referral.
                  State staff may determine not to refer. For four cases in our sample, States
                  chose not to follow Federal referral policy at their own discretion. In
                  these cases, State staff decided to delay referral pending the outcome of a
                  second revisit. As a result, these cases were out of compliance past the
                  date that CMS is required to impose a mandatory remedy for
                  noncompliance. State staff reported that they did not refer these cases
                  because they believed the facility would achieve compliance soon without
                  imposition of a remedy.
                  Informal Dispute Resolutions may delay referral. All respondents in our State
                  and CMS interviews reported correctly that an Informal Dispute
                  Resolution (IDR) would not delay enforcement action. However, our case
                  reviews revealed three examples in which the State held referral of cases
                  for a pending IDR, then never ultimately referred the cases because the
                  IDR overturned the deficiency that warranted referral. This indicates
                  that all State staff may not be clear regarding the required referral of
                  enforcement cases regardless of whether the facility has initiated an IDR.




OEI-06-03-00400   S TAT E R E F E R R A L   OF   NURSING HOME ENFORCEMENT CASES
                                                                                              23
A   P   P E N D   I X          ~             C        



                   Abated immediate jeopardy. According to CMS central and regional office
                   staff, immediate jeopardy cases must be referred by States to CMS, even
                   when the deficiency constituting the immediate jeopardy is removed
                   (abated) while the survey is still in progress. In four CMS regions, staff
                   reported that States are allowed more time to refer these cases than the
                   required 2-day referral period for an immediate jeopardy case. For example,
                   one CMS region requires States to refer abated immediate jeopardy cases
                   within the time period expected for double G cases (10 days). However, in
                   two cases in our sample, surveyors did not refer immediate jeopardy cases
                   that were abated and gave the abatement as their reason for not referring
                   them.




OEI-06-03-00400    S TAT E R E F E R R A L   OF   NURSING HOME ENFORCEMENT CASES
                                                                                       24
     Δ            A P P E N D I X                                   ~       D 



                             Double G Case Example
                             Illustrating Federal criteria which require that States use the most recent
                             completed standard survey in establishing a timeframe for review of
                             facility survey history
                             This example illustrates a potential problem in identifying double G
                             cases (see Figure 1). In this case, a G-level deficiency is cited during a
                             revisit. If State staff reviewed history only back to the most recent
                             standard survey (following which the facility has not yet acheived
                             compliance), the staff would incorrectly determine that this is not a
                             double G case because the highest deficiency cited on that survey was
                             an F-level. Rather, State staff should review history back to the most
                             recent completed standard survey, meaning the most recent for which
                             compliance was eventually achieved.

                             The double G criteria are designed to identify a historical pattern of
                             noncompliance. Counting deficiencies within the current period of
                             noncompliance can limit the timeframe for review to as little as a few
                             days or weeks. If State staff followed the incorrect policy of reviewing
                             facility history only to the most recent standard survey, they would
                             overlook a pattern of noncompliance.




                    Source: Example drawn from OIG 2004 analysis of 3,323 cases requiring referral, July 2002–June 2003.




OEI-06-03-00400              S TAT E R E F E R R A L S   OF   NURSING HOME ENFORCEMENT CASES                           25
     Δ            A P P E N D I X                           ~      E



         Agency Comments to Draft Report




OEI-06-03-00400         S TAT E R E F E R R A L S   OF   NURSING HOME ENFORCEMENT CASES   26 

    A P P E N D   I X ~ E                     





OEI-06-03-00400   S TAT E R E F E R R A L S   OF   NURSING HOME ENFORCEMENT CASES   27
    A P P E N D   I X ~ E                     





OEI-06-03-00400   S TAT E R E F E R R A L S   OF   NURSING HOME ENFORCEMENT CASES   28
    A P P E N D   I X ~ E                     





OEI-06-03-00400   S TAT E R E F E R R A L S   OF   NURSING HOME ENFORCEMENT CASES   29
  Δ         E NC DK NN OO T WE LS E D G M E N T S
            A

This report was prepared under the direction of Judith V. Tyler, Regional Inspector General for
Evaluation and Inspections of the Dallas Regional Office, and Kevin Golladay, Assistant
Regional Inspector General of the Dallas Regional Office. Other principal Office of Evaluation
and Inspections staff who contributed include:



                        Amy Ashcraft, Team Leader
                        Ruth Ann Dorrill, Project Leader

                        Blaine Collins, Program Analyst

                        Sarah Craren, Program Analyst

                        Clark Thomas, Program Analyst

                        Susan Wolfe, Program Analyst

                        Sandy Khoury, Program Specialist



                        Technical Assistance

                        Barbara Tedesco, Mathematical Statistician

                        Kevin Farber, Mathematical Statistician

                        David Graf, Program Analyst

                        Scott Horning, Program Analyst

                        Linda Moscoe, Program Analyst


                        Field Assistance

                        Tara Bernabe, Program Analyst, Philadelphia

                        Sylvia Chin, Program Analyst, San Francisco

                        Tricia Fields, Program Analyst, Kansas City

                        Graham Rawsthorn, Assistant Regional Inspector General, Atlanta

                        David Rudich, Program Analyst, New York

                        Marco Villagrana, Program Analyst, Chicago




OEI-06-03-00400         S TAT E R E F E R R A L S   OF   NURSING HOME ENFORCEMENT CASES     30
